IN THE SUPREME COURT OF THE UNITED STATES

JAMES HARRIS,

)
)
)
)
)
)
)

vs.
SHERIE KORNEMAN,
Respondent.

On Petition for Writ of
Certiorari to the Missouri
Supreme Court

PROOF OF SERVICE
I hereby certify that on July 31, 2020, in compliance with Supreme Court
Rule 29.3, I served a copy of the following documents upon counsel for the
respondent: Petition for Writ of Certiorari to the United States Court of Appeals
for the Eighth Circuit; Motion to Proceed in Forma Pauperis and Affidavit; and
Proof of Service.
Such service was obtained by mailing documents via first class mail with
postage fully prepaid and properly affixed thereto at Clayton, Missouri, addressed
to:
Eric Schmitt
Attorney General
Office of the Missouri Attorney General
PO Box 899
Jefferson City, MO 65102

-1-

(Counsel of Record)
Law and Schriener, LLC
141 North Meramec Avenueo Suite 314
Clayton, Missouri 63105
(314) 721-7095 * telephone
(314) 863-7096 - facsimile
kschlienqr@ schrienerlaw. com

Counselfor Petitioner

Dated this 31't day of July, 2020.

n

